No. 19-399

IN THE
____________
BARRY CAESAR GARCIA,

PETITIONER,

V.

STATE OF NORTH DAKOTA, RESPONDENT.
____________
On Petition For A Writ Of Certiorari To
The Supreme Court of North Dakota
SUPPLEMENTAL BRIEF FOR PETITIONER

John R. Mills

Counsel of Record

Genevie Gold
PHILLIPS BLACK, INC.
1721 Broadway
Suite 201
Oakland, CA 94612
j.mills@phillipsblack.org
(888) 532-0897

Counsel for Petitioner

SUPPLEMENTAL BRIEF

__________________
Pursuant to Rule 15.8, Petitioner Barry Garcia
files this supplemental brief related to Jones v. Mississippi, No. 18-1259, slip op. (U.S. Apr. 22, 2021). In
Jones, the Court confronted two questions raised by
the Petitioner, namely whether a sentencer is required to make a factual finding of permanent incorrigibility before sentencing a juvenile to life without
parole for homicide, and whether in the alternative,
a sentencer must provide an on-the-record sentencing explanation making an implicit finding of incorrigibility. Slip Op. at 1. In answering both of these
questions in the negative, the Court underscored the
role of discretion under Miller [v. Alabama, 567 U.S.
460 (2012)]” in ensuring the constitutional protection
is respected. Id. at 9–14, 19. In this case such guided
discretion is noticeably absent in the Petitioner’s sentence from prior to even Roper v. Simmons, 543 U.S.
551 (2005).
In Jones, this Court noted its expectation that
sentencers would have at least one opportunity to exercise discretion “under Miller.” Id. at 12 n.4. The
Court reiterated what Miller and Montgomery v.
Louisiana, 577 U.S. 190, 210 (2016) required: “‘A
hearing where youth and its attendant characteristics are considered as sentencing factors is necessary
to separate out those juveniles who may be sentenced
to life without parole from those who may not.”).
Such a hearing is informed by the line of jurisprudence laid down in both Roper and Graham on the
point that: “Youth matters in sentencing.” Id. at 10.
Further, a hearing under Miller “affords individualized ‘consideration’ to, among other things, the

defendant’s ‘chronological age and its hallmark features.’” No. 18-1259, Slip op. at 9–10 (quoting Miller,
567 U.S. at 477).
In this case, the pre-Roper sentencing did not afford Petitioner the benefit of “individualized consideration” of his “chronological age and its hallmark
features.” Id. In contrast, the sentencing court was
left to apply its “personal philosophy” and commonsense understanding of adolescence. Pet. at 14. Yet,
such reasoning fails to consider the penological consequences of youth, and juvenile’s “diminished culpability and heightened capacity for change.” Id. at 9
(quoting Miller, 567 U.S. at 479); Pet. at 14–15. Without the benefit of this Court’s guidance, the sentencing court was unable to incorporate the shift in youth
sentencing that began with Roper and was embraced
in Miller. See Bobby v. Bies, 556 U.S. 825, 837 (2009).
Because Garcia has never had an opportunity to
present evidence in light of Miller’s protections and
no court has determined whether he is eligible for a
sentence of life without parole under the standard articulated in Miller, this case provides an opportunity
for the court to ensure the process actually required
under Miller is applied.

2

CONCLUSION

The petition for a writ of certiorari should be
granted.
Respectfully submitted,
John R. Mills

Counsel of Record

Genevie Gold
PHILLIPS BLACK, INC.
1721 Broadway
Suite 201
Oakland, CA 94612
j.mills@phillipsblack.org
(888) 532-0897

Counsel for Petitioner
April 22, 2021

3

